U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

May 27, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Xiulu Ruan v. United States, No. 20-1410
John Patrick Couch v. United States, No. 20-7934
Dear Mr. Harris:
The petition for a writ of certiorari in No. 20-1410 was filed on April 5, 2021. The
government’s response is now due, after one extension, on June 7, 2021. The petition for a writ
of certiorari in No. 20-7934 was filed on April 5, 2021. The government’s response is now due
on June 4, 2021.
We respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of
time in No. 20-1410, and a first extension of time in No. 20-7934, to and including July 7, 2021,
within which to file the government’s consolidated response in these cases.
These extensions are necessary because the attorneys with principal responsibility
for preparation of the government’s response have been heavily engaged with the press of
other matters before the Court.
Counsel for petitioner in No. 20-1410 does not oppose this further extension. Because
petitioner in No. 20-7934 is an incarcerated federal prisoner proceeding pro se, we have not
obtained his consent to this request.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1410
RUAN, XIULU
USA

JENNIFER OLIVA
ASSOCIATE PROFESSOR OF LAW
DIRECTOR, CENTER FOR HEALTH &
PHARMACEUTICAL LAW
SETON HALL UNIVERSITY SCHOOL OF LAW
ONE NEWARK CENTER
NEWARK, NJ 07102
JENNIFER.OLIVA@SHU.EDU
LAWRENCE SAUL ROBBINS
ROBBINS, RUSSELL, ENGLERT, ORSECK,
UNTEREINER & SAUBER LLP
2000 K STREET, N.W.
WASHINGTON, DC 20006
202-775-4501
IROBBINS@ROBBINSRUSSELL.COM

20-7934
COUCH, JOHN PATRICK
USA

JOHN PATRICK COUCH
14290-003
FCI FORREST CITY, LOW
PO BOX 7000
FORREST CITY, AR 72336-7000

